<html>
<title> - [H.A.S.C. No. 116-27] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-27]
  
  
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

  SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES 
                                HEARING

                                   ON

                    REVIEWING DEPARTMENT OF DEFENSE

                     STRATEGY, POLICY, AND PROGRAMS

    FOR COUNTERING WEAPONS OF MASS DESTRUCTION FOR FISCAL YEAR 2020

                               __________

                              HEARING HELD
                             APRIL 3, 2019
                             
                             

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              ______

                 U.S. GOVERNMENT PUBLISHING OFFICE 
 36-901                  WASHINGTON : 2020
 
                                     
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Bess Dopkeen, Professional Staff Member
               Eric Snelgrove, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     4

                               WITNESSES

Hassell, D. Christian, Deputy Assistant Secretary of Defense for 
  Chemical and Biological Defense, Under Secretary of Defense for 
  Acquisition and Sustainment....................................     7
Oxford, Vayl, Director, Defense Threat Reduction Agency, Under 
  Secretary of Defense for Acquisition and Sustainment...........    10
Szymanski, VADM Timothy G., USN, Deputy Commander, U.S. Special 
  Operations Command.............................................     8
Whelan, Theresa M., Principal Deputy Assistant Secretary of 
  Defense for Homeland Defense and Global Security, Under 
  Secretary of Defense for Policy................................     5

                                APPENDIX

Prepared Statements:

    Hassell, D. Christian........................................    47
    Langevin, Hon. James R.......................................    31
    Oxford, Vayl.................................................    65
    Szymanski, VADM Timothy G....................................    56
    Whelan, Theresa M............................................    34

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Larsen...................................................    87

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
               REVIEWING DEPARTMENT OF DEFENSE STRATEGY,

              POLICY, AND PROGRAMS FOR COUNTERING WEAPONS

                OF MASS DESTRUCTION FOR FISCAL YEAR 2020

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Intelligence and Emerging Threats and 
                                              Capabilities,
                          Washington, DC, Wednesday, April 3, 2019.
    The subcommittee met, pursuant to call, at 2:34 p.m., in 
room 2212, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The subcommittee will come to order.
    I want to first welcome our witnesses in today's hearing, 
Reviewing the Department of Defense Strategy, Policy, and 
Programs for Countering Weapons of Mass Destruction for Fiscal 
Year 2020.
    This past year, both Russia and North Korea famously 
employed chemical weapons, nerve agents in England and 
Malaysia, respectively. In Syria, pro-regime and ISIS [Islamic 
State of Iraq and Syria] forces have continued to use chemical 
weapons on civilian populations since 2013 to achieve their 
tactical and strategic objectives.
    The President's recent decision to withdraw from the 
Intermediate-Range Nuclear Forces (INF) Treaty, could open up 
the possibility of proliferation of intermediate-range and 
shorter-range missiles. Emerging capabilities in biotechnology 
may allow individuals acting with nefarious intent or even just 
by chance to produce biological agents in a scope and scale not 
yet encountered. And more emerging capabilities like cyber and 
hypersonics, among others, threaten to exacerbate the 
complexity of the world's WMD [weapons of mass destruction] 
threats.
    In 2014, the Department approved its strategy for CWMD 
[countering weapons of mass destruction], which outlined three 
end states--no new actors possess WMD, no WMD use, and 
minimization of WMD effects--with associated objectives and 
lines of effort. The strategy notes fiscal year constraints 
will require the Department make strategic choices and accept 
some risks, but rogue actors and technological advances still 
challenge the strategy's goals of ensuring that the U.S. and 
its allies and partners are not attacked or coerced by 
adversaries possessing WMD.
    Today, we will hear from five of the major players in the 
Department who develop CWMD policies, oversee and execute CWMD 
programs, and coordinate the Department's CWMD efforts. We 
welcome today Dr. Christian Hassell, the Deputy Assistant 
Secretary of Defense for Chemical and Biological Defense, who 
is here today for the Assistant Secretary of Defense for 
Nuclear, Chemical, and Biological Defense Programs and the 
Office of the Under Secretary of Defense for Acquisition and 
Sustainment, and we thank him for stepping in.
    The office is responsible for developing capabilities to 
detect, protect against, and respond to WMD threats; ensuring 
DOD [Department of Defense] compliance with nuclear, chemical, 
and biological treaties and agreements; continuing to work with 
allies and partners to strengthen our collective CWMD 
capabilities; and advancing the United States nonproliferation 
goals.
    Next, we welcome Ms. Theresa Whelan, who is the Principal 
Deputy Assistant Secretary of Defense for the Homeland Defense 
and Global Security [ASD(HDGS)] for the Office of the Under 
Secretary of Defense for Policy.
    The ASD(HDGS) is responsible for developing policy 
guidance, providing policy advice, and overseeing planning, 
capability development, and operational implementation to 
ensure warfighting and national security advantages in the 
mission areas of CWMD, cyberspace, and defense support of civil 
authorities, among others. The ASD(HDGS) also supervises as the 
Department's homeland defense activities.
    Ms. Whelan, I want to thank you for acting on behalf of 
Assistant Secretary Rapuano today, who is currently down the 
hall right now, I know, testifying on our Strategic Forces 
Subcommittee's space hearing. He was recently before the 
subcommittee testifying about cyber. And clearly, he has a very 
big portfolio. And so we are looking forward to hearing about 
the Department's current CWMD policies from you, including how 
the Department is ensuring that its cooperative threat 
reduction programs, which would achieve notable accomplishments 
in the past, are oriented to address today's threats and how 
the Department's thinking about cyber, opioids, and other 
nontraditional materials and capabilities that could be used to 
cause mass destruction.
    Over the last few years since the strategy was released, 
the Department has taken some initial steps to strengthen CWMD 
efforts, since the strategy was released. In 2017, the Special 
Operations Command [SOCOM] was designated as the coordinating 
authority for CWMD. Today, we will hear from Vice Admiral 
Timothy Szymanski, the Deputy Commander of SOCOM, about how the 
command is leveraging the best practices from its traditional 
missions and lessons learned in its coordinating authority role 
for countering violent extremism to reinvigorate and integrate 
CWMD awareness, planning, capacity, and capability across the 
Department and with the interagency.
    Welcome, Admiral.
    Finally, we welcome Director Vayl Oxford from the Defense 
Threat Reduction Agency [DTRA], the execution arm that falls 
within Secretary Roberts' ASD(NCB) [Assistant Secretary of 
Defense for Nuclear, Chemical, and Biological Defense] office.
    Before departing, Secretary Mattis approved a new mission 
statement for DTRA, redirecting the mission from countering and 
deterring WMD and improvised explosive device threats to 
countering WMD and improvised threat networks. This and DTRA's 
participation in the counter unmanned aerial systems mission 
are substantial evolutions. I am interested in understanding 
where this agency fits in the Department--in the Department's 
CWMD organization today and what effects this change is having 
on your core mission and responsibilities.
    Director Oxford, we welcome you, and look forward to 
hearing about the changes.
    Together, these individuals hold positions that comprise 
the bulk of assigned roles and responsibilities associated with 
aligning CWMD policy to strategy and programs, executing CWMD 
programs, and delivering current and future personal protective 
equipment to other CWMD capabilities to our warfighters.
    In the past few years, the CWMD bureaucracy has evolved as 
the Department has recognized and reorganized. In addition to 
the movement of the CWMD mission from U.S. Strategic Command to 
USSOCOM, in addition in section 901 of the fiscal year 2017 
NDAA [National Defense Authorization Act], Congress split the 
former Under Secretary for Acquisition, Technology, and 
Logistics [USD(AT&L)] into two positions, the Under Secretary 
of Defense for Research and Engineering [USD(R&E)] and the 
Under Secretary for Acquisition and Sustainment, in the hopes 
of simplifying and focusing the responsibilities of each.
    The split of USD(AT&L) into two under secretariats serves 
as both an opportunity and a potential area of risk to the CWMD 
effort. Though both ASD(NCB) and DTRA fall under ASD(A&S) 
[Assistant Secretary of Defense for Acquisition and 
Sustainment], there must continue to be coordination within all 
elements of the Office of Secretary of Defense on CWMD, 
including with the USD(R&E). This is especially true for the 
science and technology investment and research and development 
portfolio so characteristic of DTRA's past focus.
    There must also be continued focus on and prioritization of 
CWMD by all those with assigned roles and responsibilities, 
especially considering connected roles and responsibilities of 
each in your offices. So we are looking forward to hearing how 
the CWMD Unity of Effort Council is now operating.
    To that end, the fiscal year 2019 NDAA included a section 
mandating that the Secretary of Defense designate a principal 
advisor on CWMD to coordinate the CWMD activities of the 
Department. Additionally, it directed the development of a plan 
to streamline the oversight framework of OSD [Office of the 
Secretary of Defense]. That plan was to focus on any 
efficiencies that could be realized and the potential to 
reduce, realign, or otherwise restructure current ASD 
[Assistant Secretary of Defense] and Deputy ASD positions with 
responsibilities for overseeing CWMD policy, programs, and 
activities. It also directed a report on these and related 
efforts to be submitted with the fiscal year 2020 budget. We 
look forward to hearing about where all of this stands today.
    Finally, I am concerned that, due to almost two decades of 
war in Afghanistan, Iraq, and Syria, our preparedness for 
significant state-level of WMD event has atrophied. A year ago, 
General Scaparrotti said that he believed we were 
underprepared, and the Congress has expressed its continued 
dissatisfaction with our preparedness for such an event, and 
whether our troops are trained and equipped to operate in a 
contaminated environment. Thus, the fiscal year 2019 NDAA 
directed the Department to submit an assessment on material 
shortfalls in the United States Forces Korea for chemical, 
biological, radiological, and nuclear defenses. GAO [Government 
Accountability Office] has just begun work on this project.
    In closing, there is much work to be done to strengthen 
CWMD policy, programs, and preparedness. I said as much when I 
testified before the Blue Ribbon Study Panel on Biodefense in 
February, and I commend the panel and others who have continued 
to highlight the unique challenges posed by technologies that 
can cause indiscriminate destruction on a wide scale.
    Congress has an important role to play as well, and our 
focus today on understanding the 2014 strategy in the context 
of today's threat landscape, the budget request's alignment to 
current strategy, and how the Department's strategy and end 
states are consistent with a national level strategy and whole-
of-government effort, will help ensure effective oversight 
going forward.
    So, with that, I look forward to hearing from our witnesses 
on the fiscal year 2020 CWMD request, and note that following 
the discussion, that we will go into a closed classified 
follow-on hearing. With that, before we get to our witnesses, I 
want to now turn to the ranking member, Member Stefanik, for 
her remarks.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 31.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
                    THREATS AND CAPABILITIES

    Ms. Stefanik. Thank you, Chairman Langevin. And thank you 
to the witnesses for being here today.
    Inside the Department of Defense, and especially within 
Special Operations Command, we often hear of no-fail missions, 
and I cannot think of a mission more appropriate for this type 
of resolve and determination than the countering weapons of 
mass destruction problem set. While the Department of Defense 
faces urgent challenges on a daily basis, we can never afford 
to lose sight of or be distracted from the critically important 
mission of countering weapons of mass destruction.
    In February, this committee received testimony from the GAO 
and the intelligence community on long-range emerging threats 
facing the United States. One of the most alarming findings was 
the continuing trend of technological advances allowing a wider 
range of actors to acquire sophisticated capabilities that were 
once only within reach of well-resourced nation-states. This 
democratization of technology has significantly increased the 
threat posed by advancements in gene editing and synthetic 
biology. We need only to look to China to witness the risks 
posed by rogue gene editing scientists who lack the oversight 
and moral compass but who possess the expertise and technology 
to circumvent international guidelines and standards.
    I appreciate the daily focus that the Defense Threat 
Reduction Agency, U.S. Special Operations Command, OSD Policy, 
Acquisition and Sustainment, and countless other organizations 
across the Department are providing to prevent, prepare, and 
respond to CWMD events across the globe. This is especially 
relevant in recent years as Syria, North Korea, and Russia have 
all used chemical weapons to intimidate and devastate civilian 
populations or for calculated political assassinations. The 
pursuit, proliferation, and potential use of weapons of mass 
destruction remains a high-consequence threat that we must plan 
for.
    The Department has tools and resources at its disposal to 
help prevent the development, proliferation, use, and effects 
of weapons of mass destruction. I am pleased to see a 5 percent 
increase in the fiscal year 2020 budget for these activities, 
which include chemical and biological defense, detection, and 
protection capabilities; chemical demilitarization programs to 
reduce our own stockpiles and set a positive example on the 
world stage; and cooperative threat reduction program which 
proactively partners with foreign countries to prevent 
proliferation of materials, technologies, and expertise that 
could pose a WMD threat.
    Finally, I am interested to hear from our witnesses today 
how recent efforts to streamline and provide additional 
leadership and accountability to this problem set have taken 
shape, specifically the establishment of the Unity of Effort 
Council, the maturation of U.S. Special Operations Command in 
the new role of coordinating authority, and DTRA's integration 
of Joint Improvised Threat Defeat Organization.
    Thank you again to our witnesses, and I yield back to the 
Chair.
    Mr. Langevin. I want to thank the ranking member.
    The witnesses' full statement will--without objection, will 
be entered into the record, and you will each be recognized now 
for 5 minutes to summarize your remarks, if you would. And we 
now recognize Principal Deputy Assistant Secretary Whelan for 
opening remarks.

  STATEMENT OF THERESA M. WHELAN, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY, 
             UNDER SECRETARY OF DEFENSE FOR POLICY

    Ms. Whelan. Thank you, Chairman Langevin, Ranking Member 
Stefanik, and members of this subcommittee, for the invitation 
to join my distinguished DOD colleagues here today to address 
current countering WMD policy, strategy, priorities, and 
programs. As the Principal Deputy Assistant Secretary of 
Defense for Homeland Defense and Global Security at OSD Policy, 
I support the Assistant Secretary of Defense in the execution 
of responsibilities for the Department's CWMD policy and 
strategy.
    The Department's CWMD mission is broad, deep, and 
multifaceted, requiring a unity of effort among the Secretary 
of Defense's principal staff assistants, along with the Joint 
Staff, the combatant commands, the military services, the 
defense agencies, and the intelligence community.
    Within DOD, OSD Policy focuses on developing, coordinating, 
and overseeing implementation and integration of CWMD policy 
and strategy. We work closely with other OSD components to 
synchronize, to deconflict, and to assess the effectiveness of 
activities across and among our respective CWMD missions.
    We partner closely with the Office of the Assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs to align DOD CWMD policies with their 
activities that affect or require engagement with U.S. and 
international partners.
    OSD Policy also partners closely with the Defense Threat 
Reduction Agency and U.S. Special Operations Command to help 
incorporate strategic level policy and guidance into their 
respective program execution and planning activities.
    The complexity of the CWMD mission area requires a unity of 
effort, which was codified by the then Deputy now Acting 
Secretary of Defense establishing the DOD's CWMD Unity of 
Effort Council. The Unity of Effort Council has raised 
awareness and accelerated collaboration, coordination, and 
deconfliction across DOD's CWMD enterprise. The council is 
structured to drive results across the three primary lines of 
effort in the 2014 DOD strategy for CWMD: First, to prevent 
acquisition of new WMD; second, to contain and reduce threats; 
and third, to respond to crises.
    With the release of the National Security Strategy in 2017 
and the National Defense Strategy [NDS] in 2018, we recognized 
the need to determine whether the 2014 CWMD strategy required a 
refresh or rewrite. We asked the National Defense University 
[NDU] to analyze the CWMD strategy and provide a recommendation 
on whether a new strategy would be necessary to execute the 
2018 NDS. NDU assessed, and Policy concurred, that since the 
CWMD strategy is threat-agnostic and provides a flexible 
framework, the strategy remains relevant to the WMD threat 
environment and effectively nests under the NDS.
    We did, however, identify a need to develop priorities for 
the CWMD enterprise that take into account the CWMD strategy's 
framework, the NDS approach, and the threat actors identified 
in the functional campaign plan for CWMD. Policy is leading 
this effort via the Unity of Effort Council.
    With regard to threats, a key priority remains the threats 
posed by North Korea's WMD programs. DOD is supporting the 
State Department's efforts to achieve the final, fully verified 
denuclearization of North Korea, and remains postured for any 
military contingency. We also remain concerned by the erosion 
of international norms against the use of chemical weapons. The 
pattern of use by state and nonstate actors is alarming. Russia 
in the U.K. [United Kingdom], the Assad regime against Syrian 
citizens, North Korean agents in Malaysia, and nonstate actors 
in Syria and Iraq.
    Additionally, Iran's WMD threat remains with or without 
JPOA [Joint Plan of Action]. We continue to support the larger 
U.S. Government effort to deny Iran all paths to a nuclear 
weapon and counter Iran's proliferation of missiles around the 
region. The WMD threat environment is complicated further by 
the rapid technological advancement coupled with increased 
access to dual-use materials and expertise, particularly in the 
biological science fields. The threats are complex with no 
simple formula or direct path to eliminate them all. Key 
efforts OSD Policy supports to address WMD and related 
materials proliferation and use include serving a leadership 
role in a proliferation security initiative; updating policy 
guidance for a cooperative threat reduction program; engaging 
our international partners to enforce North Korea-related U.N. 
[United Nations] Security Council resolutions; reviewing and 
updating DOD policy and guidance documents related to force 
preparation and protection against WMD incidents and 
contaminated environments; and last but not least, developing 
and reinforcing allies' and partners' capacity and capabilities 
to detect, interdict, and respond to WMD use and proliferation.
    We appreciate your continued interest in and support for 
the CWMD mission space to ensure we remain agile and positioned 
to confront WMD challenges.
    Thank you for the opportunity to address the subcommittee, 
and I look forward to answering questions.
    [The prepared statement of Ms. Whelan can be found in the 
Appendix on page 34.]
    Mr. Langevin. Thank you, Secretary Whelan.
    Deputy Assistant Secretary Hassell is now recognized for 5 
minutes.

 STATEMENT OF D. CHRISTIAN HASSELL, DEPUTY ASSISTANT SECRETARY 
OF DEFENSE FOR CHEMICAL AND BIOLOGICAL DEFENSE, UNDER SECRETARY 
           OF DEFENSE FOR ACQUISITION AND SUSTAINMENT

    Dr. Hassell. Thank you, Chairman Langevin, Ranking Member 
Stefanik, and distinguished members of the subcommittee. I 
appreciate the opportunity to join my colleagues in testifying 
on the Department's efforts to counter threats posed by weapons 
of mass destruction and to provide context for the President's 
fiscal year 2020 budget request. As noted today, I am 
representing the Office of the Assistant Secretary of Defense 
for Nuclear, Chemical, and Biological Defense Programs.
    Our budget request includes resources to reduce threats and 
protect warfighters in several areas. First, the chemical and 
biological defense program budget request of $1.4 billion will 
continue the development of capabilities to protect against 
chemical, biological, and radiological threats. Our chemical 
demilitarization program of $986 million will continue to 
ensure the safe, complete, and treaty-compliant destruction of 
the U.S. chemical weapons stockpile. Our nuclear matters 
resources of $65 million will support the development of 
policies that guide the safety and security of the Nation's 
nuclear deterrent and help to counter threats of nuclear 
terrorism and proliferation.
    The Defense Threat Reduction Agency budget request of $1.9 
billion includes the areas that will be described by Mr. Oxford 
in a moment.
    Our National Defense Strategy directs the Department to 
compete, deter, and win, alongside our allies and partners, to 
prevail in conflict and preserve peace through strength. Among 
its key components, the strategy prioritizes nuclear 
modernization, readiness, and lethal combat power in contested 
environments.
    Our office is first responsible for ensuring that our 
nuclear deterrent is safe, secure, and effective. This is in 
order to prevent--to deter the use of WMD against the U.S. and 
our allies. Furthermore, from a readiness standpoint, the 
office is the Department's focal point for developing material 
capabilities to ensure that our forces are resilient against 
WMD threats. So in other words, we must protect those 
warfighters so that they can accomplish their mission, even if 
it is in a contaminated environment. We often use the phrase 
protect to fight, not just protect to survive.
    We accomplish these objectives through multiple programatic 
efforts. With respect to nuclear threats, the Department of 
Defense works with other departments and agencies to strengthen 
the Nation's capability to detect and respond to nuclear 
proliferation. The chemical and biological defense program 
ensures the protection and resiliency of our forces by 
providing research, development, testing, and fielding of 
protective equipment, detectors, decontamination systems, 
vaccines, and therapeutic drugs.
    In domestic chemical demilitarization, the Department 
continues to make significant progress in meeting the Nation's 
commitments under the Chemical Weapons Convention by 
eliminating our remaining chemical weapons stockpiles in 
Colorado and Kentucky.
    The Department's counter-WMD activities support a broad 
spectrum of efforts that protect our forces and reduce threats. 
We strengthen program effectiveness and ensure efficiencies by 
acting in collaboration and coordination with numerous 
interagency and international partners and, of course, with our 
DOD partners as represented here today.
    So thank you again for the opportunity to testify before 
you today.
    [The prepared statement of Dr. Hassell can be found in the 
Appendix on page 47.]
    Mr. Langevin. Thank you, Secretary Hassell.
    Vice Admiral Szymanski is now recognized for 5 minutes.

STATEMENT OF VADM TIMOTHY G. SZYMANSKI, USN, DEPUTY COMMANDER, 
                U.S. SPECIAL OPERATIONS COMMAND

    Admiral Szymanski. Thank you, Chairman.
    Good afternoon, Chairman Langevin, Ranking Member Stefanik, 
and members of the subcommittee. Thank you for the invitation 
to update you on the work of U.S. Special Operations Command as 
the Department's coordinating authority for countering weapons 
of mass destruction.
    U.S. Special Operations Command's responsibilities as DOD 
coordinating authority revolve around counter WMD campaign 
planning, assessing progress against campaign objectives, and 
recommending changes to plans for countering WMD, all in 
support of the geographical combatant commanders' and 
Department priorities. These functions are distinct from the 
command's longstanding and continuing operational role in WMD 
counterproliferation.
    In the past 18 months since USSOCOM assumed the role as the 
Department's CWMD coordinating authority, we have completed and 
published the Functional Campaign Plan for Countering Weapons 
of Mass Destruction. This plan focuses joint force activities 
below the level of armed conflict to defeat priority actors of 
concern along pathways from aspiration or intent to acquire WMD 
to development or use of WMD. This approach orients the 
Department's military capability and capacity to prevent, 
protect, and respond to global WMD threats aligned with 
national strategy.
    To directly support combatant commanders with their 
responsibilities for planning against priority threat actors, 
USSOCOM's Countering Weapons of Mass Destruction Fusion Cell 
has developed operational frameworks to compel prudent military 
planning focused on specific threat actors, inform the joint 
force of both friendly and adversary capability capacity and 
intent, and align operations activities and investments across 
all instruments of national power.
    We recently completed the annual assessment of the joint 
force's capability and capacity to counter WMD. Although this 
year's assessment was focused on combatant commands, it was 
mapped to the objectives of the new functional campaign plan, 
and we will use the feedback from across the Department to 
include services and combat support agency inputs to identify 
gaps and recommend mitigation strategies to the Acting 
Secretary of Defense.
    In its capacity as DOD countering WMD coordinating 
authority, SOCOM works in close partnership with the offices of 
each of the distinguished panelists before you. We are guided 
by national Department policy and strategy for countering 
weapons of mass destruction, as conveyed by the Assistant 
Secretary of Defense for Homeland Defense and Global Security. 
The Office of the Assistant Secretary for Nuclear, Chemical, 
and Biological Defense Programs develops new capabilities to 
counter WMD and help guide the Unity of Effort Council.
    Part of the Countering WMD Fusion Cell that executes 
SOCOM's coordinated authority is co-located with and 
collaborates daily with Vayl Oxford's forward-leaning team at 
the Defense Threat Reduction Agency. We could not do our work 
without the leadership of all these strong partners.
    Although SOCOM is the Department of Defense's coordinating 
authority, the countering WMD mission is rightfully a whole-of-
government mission. We cannot succeed in this role, and the 
joint force cannot perform its mission adequately, without an 
active, persistent engagement with the U.S. interagency to 
ensure a comprehensive understanding of the capabilities and 
complementary activities of the Department of State, Commerce, 
Energy, Homeland Security, Justice, Treasury, the intelligence 
community, and many more.
    Our annual Countering WMD Coordination Conference in the 
fall brought together these departments and agencies with DOD 
services, commands, combat support agencies, and the Joint 
Staff to identify cross-cutting challenges and make 
recommendation to enhance our collective ability to disrupt and 
defeat WMD adversaries. This past February, General Thomas 
hosted senior leaders from the same broad community at SOCOM 
headquarters to assess progress on these challenges and 
identify focus areas for the coming year.
    We are pleased to include defense representatives from 
Australia, Canada, France, Germany, New Zealand, and the United 
Kingdom, recognizing that no country can execute the countering 
WMD mission alone.
    In addition to hosting these outcome-focused fora, we 
welcome the recent establishment of the countering WMD Unity of 
Effort Council. As the WMD threats to our country become ever 
more complex, we will work with the council to further unify 
the DOD countering WMD community and address Department 
challenges.
    SOCOM looks forward to continued close work with the Office 
of the Assistant Secretary for Homeland Defense and Global 
Security, Assistant Secretary for Nuclear, Chemical, and 
Biological Defense Programs, the Defense Threat Reduction 
Agency, the Joint Staff, and the rest of the U.S. international 
countering WMD community to defeat emerging WMD capabilities 
and protect the U.S. and its interest from actors with existing 
WMD programs.
    Thank you again for the opportunity to address the 
committee this afternoon, and I look forward to your questions.
    [The prepared statement of Admiral Szymanski can be found 
in the Appendix on page 56.]
    Mr. Langevin. Thank you, Vice Admiral Szymanski.
    The Chair now recognizes Director Oxford for 5 minutes.

 STATEMENT OF VAYL OXFORD, DIRECTOR, DEFENSE THREAT REDUCTION 
    AGENCY, UNDER SECRETARY OF DEFENSE FOR ACQUISITION AND 
                          SUSTAINMENT

    Mr. Oxford. Thank you, Mr. Chairman. Chairman Langevin, 
Ranking Member Stefanik, members of the committee, thank you 
for your continued support to the Defense Threat Reduction 
Agency where we respond to the most complex and dynamic threat 
environment we face as a Nation. In doing so, DTRA has adopted 
a whole-of-government approach working with OSD, the Joint 
Staff, the combatant commands, our interagency partners, and 
international partners. Our approach enables the Department to 
detect, deter, and defeat transregional and multidomain threat 
networks.
    I am pleased to appear before you today with these three 
colleagues of DTRA's closest partners. We work closely with NCB 
and Ms. Whelan's office to ensure our priorities are aligned 
with the National Defense Strategy. Also, we have a strong and 
enduring relationship with the USSOCOM in both its role as 
coordinating authority and as a combatant command.
    My priorities for DTRA remain enhance combat support, 
strengthen and expand our relationships with interagency and 
international partners, foster innovation to develop 
capabilities to counter weapons of mass destruction and 
improvised threats, and to empower the DTRA workforce.
    Since I last appeared before the committee, we have 
continued to focus our efforts on these priorities and the 
guidance outlined in the National Defense Strategy that 
requires DOD to build a more decisive and lethal force, 
strengthen our nuclear deterrent, and compete below the level 
of armed conflict. DTRA plays an important role in all three of 
these.
    We maintain our counter WMD improvised threat capability 
development and operational support to the conventional 
warfight. We are strengthening our efforts that support a 
secure and effective nuclear deterrent. We have enhanced our 
analytic capabilities to enable DOD, the U.S. Government, and 
international partners to counter and deter adversary WMD and 
improvised threat networks. In doing so, we will enable the 
U.S. to compete below the level of armed conflict and counter 
the malign influence and disruptive capabilities of our 
adversaries.
    To do this, we are working closely with the combatant 
commands and the interagency to illuminate these adversarial 
networks comprised of surrogates, proxies, criminal 
organizations, in order to disrupt and defeat them. We also 
develop specialized tools and capabilities to be used in 
disrupting these networks. Additionally, we are working with 
international partners to forge relationships, build 
partnership capacity, and counter adversary influence.
    As we return to great power competition, we will continue 
the pressure on VEOs [violent extremist organizations]. We must 
develop agile, integrated, and tailored solutions to address 
this global threat environment. To be successful, we must have 
a laser-focused workforce that is motivated by the common 
purpose of protecting our Nation.
    I am proud and honored to be staffed with people that are 
dedicated in this mission working with us side by side every 
day. Again, thank you for your continued support, and I look 
forward to your questions.
    [The prepared statement of Mr. Oxford can be found in the 
Appendix on page 65.]
    Mr. Langevin. Thank you, Director Oxford.
    Members now will be recognized for 5 minutes, and I will 
start with the questioning recognizing myself.
    Let me begin, if I could, with you, Secretary Whelan. The 
Office of the Assistant Secretary of Defense for Homeland 
Defense and Global Security is well situated to see across many 
different areas and understand how different threat areas 
intersect. For example, Secretary Rapuano is not here today 
because he is testifying in our Strategic Forces Subcommittee, 
as I mentioned, in the hearing on space down the hall and was 
recently here testifying on cyber and the border.
    Can you speak to this broad perspective and how you're 
acting upon this responsibility to take--to shape holistic CWMD 
policy for the Department? And in your opinion, does the office 
require additional resources or restructuring to ensure that 
space, cyber, homeland defense, and CWMD all receive the level 
of attention that each of these issue areas demand, all of 
which are obviously very important?
    Ms. Whelan. Thank you, Congressman. So it is quite a broad 
portfolio in some ways, but in other ways, it is actually quite 
tightly and nicely nested. I actually served in the office some 
years ago when it was Homeland Defense and Western Hemisphere, 
and I think its current organizational structure is actually 
much more suited.
    The homeland defense mission is, of course, very 
interrelated to space policy and also cyber, as well as CWMD. 
This provides the opportunity having them all under one 
assistant secretary for Assistant Secretary Rapuano to see 
across these areas, make linkages, and ensure that we 
essentially have our own internal cross-functional teams to 
move forward on linked issues, whether they be linkages between 
cyber and our mission assurance policies or space and cyber or 
even the impacts of cyber, for example, on the proliferation of 
knowledge related to CWMD.
    We think that the office is structured quite effectively, 
and we appreciate the support that it has had from Congress to 
date and we look forward to continuing that support and 
relationship with Congress.
    Mr. Langevin. Thank you. I think you touched on my next 
question I had, but in really thinking about more specifically 
how the Department is thinking about cyber and opioids and 
other nontraditional research materials and capabilities that 
could be used to cause mass destruction. Can you go into a 
little more detail on those issues?
    Ms. Whelan. Yes, absolutely. And thank you again. That is a 
very important question for the Department. Let me just briefly 
first address cyber, and that is a really interesting one 
because, of course, cyber can theoretically be used as a tool 
to produce effects that result in mass destruction. For 
example, you could use cyber as a tool and trigger a release of 
CBRN-type materials, chemical, biological, radiological [and 
nuclear]. You could also use cyber as a tool to trigger a 
cascading series of events that would have the cumulative 
effects of mass destruction, or even use cyber as a tool to, 
say, force a dam to release all of the water, destroying towns 
that were below the dam.
    In all of these cases, though, cyber is a tool that enables 
the release of some sort of lethal material or kinetic event, 
such as an explosion. Cyber isn't in and of itself lethal and 
its effects are not assured.
    So the common characteristic of the materials that we have 
traditionally characterized as WMD is that they are all in and 
of themselves lethal materials, and then when weaponized for 
use in warfare, they are inherently indiscriminate and large-
scale in effect. The cyber tool, though, when used as a weapon, 
is really not inherently indiscriminate or large-scale, and, in 
fact, it can actually be quite precise.
    Similarly, if you look at even conventional weapons, they 
can be targeted and aggregated in such a way as to produce a 
mass destructive effect, so--but we don't consider them weapons 
of mass destruction.
    So we don't consider cyber a weapon of mass destruction, 
but we do see that cyber has complicated the CWMD threat arena 
by, again, allowing information to proliferate.
    As to opioids, very serious issue for us, something that 
the Unity of Effort Council is going to take up specifically 
with regard to fentanyls. DOD is very concerned about the use 
of fentanyls. Countries like Russia and Iran, for example, are 
using fentanyls or repurposing them as incapacitants, they call 
them, for supposedly law enforcement purposes. We think this is 
a very dangerous precedent and have supported the State 
Department in their efforts to reduce and engage with countries 
that export fentanyls and reduce those exports.
    But if you would allow me, I would like to just turn 
briefly to Dr. Hassell to address what else we are doing on the 
opioid front.
    Dr. Hassell. Yes. I am glad you brought that up because it 
has been a big area of emphasis for us, especially over the 
last few years. We had been concerned about fentanyls for many 
years, ever since the 2002 incident in Russia in the theater 
when fentanyls were used. Since then, though, with the opioid 
crisis, we have seen much more proliferation and much more 
availability of these materials. So that has raised our 
concern.
    We have an immediate issue with our civil support teams, 
the part of the National Guard that provides support to law 
enforcement and first responders for State and locals. We 
provide their equipment, so we need to make sure that they are 
protected now.
    We are also looking at what is the potential impact on the 
battlefield use of this. So as mentioned, we are looking at it 
with the Unity of Effort [Council] to bring about all the 
issues, not just the material solutions, but what are the 
training, what are the policy doctrine, and other issues that 
would be brought to bear on that. And then looking at the 
specific things, like toxicology, detectors, medical treatment.
    But I would emphasize, we are doing this with the 
interagency. DOD doesn't often work with, for example, Drug 
Enforcement Administration, but that has been a good example of 
sort of a new lash-up that has been very helpful, just bringing 
the departments together, everyone who has a stake in this 
thing. And I am hopeful that is actually going to help move us 
forward on this much more quickly.
    Thank you.
    Mr. Langevin. Good point, Secretary Hassell. And I thank 
both of you for your answers, and I think this--again, the 
challenges that we face here reinforce the need for much more 
of a whole-of-government approach and getting the oars pulling 
in the same direction. I see some serious challenges.
    I would like now to just give Vice Admiral Szymanski and 
Director Oxford a chance to weigh in here. And to both of you, 
what are you doing operationally to maintain situation 
awareness, continuing to help combatant commanders plan, 
maintain, a left-of-boom approach on these topics?
    Admiral Szymanski. Chairman, thank you for that question. 
So with the signing of the functional campaign plan, the subset 
to that is developing operational frameworks so we can get 
after the five specific threats from the National Defense 
Strategy. So those are the global campaigns that the 
geographical combatant commanders are working on.
    So how are we working out? We are taking our methodology 
from the functional campaign plan, which is basically a 
holistic approach to countering through a taxonomy and a 
methodology of pathway defeat, much like in your opening 
statement when you discussed VEOs and how over the years in 18 
years, how we have developed the targeting methodology. It is a 
pathway as well, VEOs. So we see the WMD problem set through 
that same sort of methodology at least for, again, taxonomy 
purposes.
    So we are taking that methodology and trying to use that, 
again, very threat specific--or threat specific to the NDS, but 
the modalities are different for the different threats, but 
applying that same sort of operational framework for the 
operations, activities, investments that we are doing in each 
of those theaters to ensure across all instruments of the 
interagency and partnerships, international partnerships, that 
we are getting after that pathway defeat short of conflict. So 
the things we are doing to build partner nation capacity, 
security force assistance, you know, against all the different 
pathways.
    Thank you.
    Mr. Langevin. And as the coordinating authority, can you 
expand a little more on how you are working a whole-of-
government interagency functional campaign plan on these 
issues?
    Admiral Szymanski. So typically--thanks, again. Typically, 
through the CWMD coordination conference really twice a year 
for the larger instruments of the interagency and partnership. 
But for the GCCs [geographic combatant commands], the real 
aspects of coordinating authority is--in my opening statement 
is the actual planning, so really trying to baseline the 
campaign plan, the functional campaign plan in concert with the 
geographical combatant commanders' global campaign plans, 
assessing where our operations, activities, and investments are 
not meeting the mark or they are meeting the mark and then 
making recommendations through--up to the Secretary through the 
global integrator, the chairman, on where we need a change in 
those plans or resources to get after that pathway defeat.
    Mr. Langevin. Thank you, Admiral.
    And finally, Director Oxford.
    Mr. Oxford. Thank you, Mr. Chairman. I will break this down 
into three easy bins. First is we are directly involved using 
our WMD expertise with Admiral Szymanski's planning cell that 
is co-located with us, so we are working with his operational 
planners to help with the plans for the combatant commands.
    Secondly, on situational awareness, we are using our 
software development team to actually develop visualization 
tools that highlight different aspects of the WMD threat in 
various AORs [areas of responsibility]. We have done this 
extensively with USFK [United States Forces Korea], with SOCOM, 
with 1st Special Forces Group, Seventh Air Force. And in many 
cases, we are able to give some of these planning tools to the 
Republic of Korea so we are able to put it onto their network 
so they have similar situational awareness of the information 
on the ground inside Korea so we can share across the forces. 
So we are doing that routinely in terms of visualization, which 
has common databases people can draw from.
    The second thing we have done for situational awareness is 
we have established what we call a global integration center 
within DTRA. What we are doing now is we have about 400 people 
forward embedded with the forces overseas at the COCOMs 
[combatant commands], at the embassies, in places like that, so 
we now have cross-information flow coming from the community 
that is externally based through the combatant commands into 
this global integration center that is at my headquarters. So 
that is allowing the cross flow of information to go across all 
the commands so we have equal awareness of what is going on in 
each of those and we can share across the global force.
    The last area I will talk about is the command support 
itself. I mentioned the embedded support we have forward. That 
allows us to have situational awareness on the ground so we 
understand the requirements. We can rapidly meet those 
requirements by understanding the operational pressures and 
what the needs are.
    And then the last thing I will mention is I have 
operational requirements documents from four-star levels for 
all combatant commands. We have been in direct contact with the 
commanders of each of the combatant commands to understand what 
they need in the counter WMD mission set, and then we address 
those through our capability development process.
    Mr. Langevin. Very good. Thank you, Director.
    I want to turn now to the ranking member for questions.
    Ms. Stefanik. Thank you.
    Vice Admiral Szymanski, SOCOM has now been in the 
coordinating authority capacity for 2 years. Can you explain 
how SOCOM views this responsibility, how you have tasked and 
organized yourself, and what is different now from when that 
coordinating responsibility was in STRATCOM [U.S. Strategic 
Command]?
    Admiral Szymanski. I certainly thank you for the question. 
So maybe I will start with the last piece first, how we are 
different from the STRATCOM. I think it goes a little bit to my 
last response and that we have maybe taken a different 
targeting methodology that we have learned from lessons learned 
with the violent extremist organization, transregional nature 
of that threat, and have applied that on how we can organize at 
least planning efforts transregionally on a blue force look 
against that threat, against those that--that methodology I 
talked about through pathway defeat.
    What we have done internally to organize is, obviously, we 
stood up the CWMD Fusion Cell headed by Joe--Rear Admiral Joe 
Diguardo, ``Digger'' Diguardo, sitting behind me, that co-
located with Mr. Oxford's team there up here in DC. And we 
ensure that we have kind of separated our title 10 
responsibilities to man, train, and equip for operating in a 
contaminate environment and our typical counterproliferation 
operational role, but--and really put the focus on the three 
aspects of what the chairman's definition of a coordinating 
authority, the planning, the--you know, and that is--the basis 
of that is the functional campaign plan, the annual assessments 
on all the global campaign plans, our nesting and alignment of 
our methodology with those global campaign plans, and then 
finally, making recommendations to the chairman--to the SECDEF 
[Secretary of Defense] through the chairman for where we again 
may have to shift resources.
    Ms. Stefanik. Thank you. I wanted to follow up with you, 
and also Mr. Oxford can weigh in. In addition to my position as 
ranking member on this subcommittee on HASC [House Armed 
Services Committee], I also sit on the Intelligence Committee, 
so I view this CWMD problem through a national intelligence 
lens as well. Can you comment or how would you grade the 
intelligence support to CWMD as we compare it to other mission 
spaces such as counterterrorism? Do you believe that DTRA, 
SOCOM, and the geographic component commands' intel 
requirements are being met? I will start with you, Vice 
Admiral.
    Admiral Szymanski. Yes, thanks for the question. I think 
the enterprise--the intelligence enterprise is well positioned 
to answer requirements. I think the focus for geographical 
combatant commanders has largely been on deter strategic 
effects and attacks, and we are trying to bring, I think, maybe 
the aspects of the shift to--of the mission towards SOCOM is to 
bring some focus through that target methodology that may not 
have been there before. And I think as Mr. Oxford just 
mentioned, he has got operational requirements now, I think, 
that are much more tailored towards the CWMD request for 
support and understanding of the threat, the nature of the 
threat. It is a complex problem and it needs, you know, a 
partnered integrated global solution.
    Ms. Stefanik. Mr. Oxford.
    Mr. Oxford. Yes, thank you. I agree with the admiral. We 
have actually looked at this pretty hard recently. We sat down 
with a senior group from USDI [Under Secretary of Defense for 
Intelligence], talked about the collection process, the 
assessment process. We think we are getting everything we need. 
We are working hard now to understand where we need to be 
looking better, but I will tell you that we have got full 
support. I was with Secretary Kernan last Friday. He said 
whatever we need we will get from his community. He is 
committed to that. So it is a matter of us identifying, as we 
get into great power competition, how do we ask that question 
better. Sometimes it is one thing to say do you have what you 
are getting at, but if you are not asking the right questions 
it is hard for the intel community to respond.
    Separately, I will say we have also reestablished some 
interagency working groups that had gone into default. When I 
came back into the office, I started working with the IC 
[intelligence community], with SOCOM. We now have some 
interagency groups that are looking at this in detail and 
sharing information better than we ever had. I will have to go 
into the details in the closed session in terms of what those 
groups look like.
    Ms. Stefanik. Thank you. I look forward to following up in 
closed session.
    I yield back.
    Mr. Langevin. Thank you.
    I now recognize Mr. Larsen for 5 minutes.
    Mr. Larsen. Thank you.
    Mr. Oxford, can you talk a little bit about how current 
events are impacting DTRA's operations and plans and how 
emerging technology is impacting DTRA's operations and plans, 
and whether or not you are budgeted for that?
    Mr. Oxford. So there is a--it depends on what you mean, 
Congressman, by current events. There are so many on a daily 
basis. We are faced with the evolving counter UAS [unmanned 
aircraft system] threat as one example that has grown rapidly 
in the CENTCOM [U.S. Central Command] AOR with CENTCOM and 
SOCOM forces at risk. We have been working that hard for the 
last 2\1/2\ years.
    When that threat emerged, we were able to do some things to 
deal with some of the early threats. Again, I can go into the 
details in the closed session in terms of how we did that, but 
we are seeing that threat evolve every 60 to 90 days.
    Mr. Larsen. The counter UAS?
    Mr. Oxford. The counter UAS threat. The adversary is 
evolving to our countermeasures, and we have to just stay in 
front of that through predictive analysis and some of the 
analytic capabilities we have. It is a challenge. Right now, I 
think we are properly resourced to get after that problem. We 
have just got to stay in front of the evolving threat.
    As many people in this committee know, the 4G, the 5G kind 
of evolution provides both us advantages, it provides the 
adversary advantages in how they can essentially get out in 
front of some of our countermeasures. So we need to look at 
that every day, and we can talk a little bit more about that in 
the closed session if that helps.
    Mr. Larsen. Yes, that would be great. Does the same 
principle then apply on emerging technology, increased use of 
artificial intelligence [AI] and the collection of data and 
what adversaries are doing with it but what you are doing with 
it as well?
    Mr. Oxford. Clearly, from our vantage point, as we have 
talked to some of you about, we are applying this in abundance 
because we have to get after the great power competition these 
days. And we are taking AI, we are using it with all the ops 
intel data that we are actually collecting through two 
analytical cells, one that we have through our Joint Improvised 
Defeat Office that is in Reston, the other one that we have 
that we share with Admiral Szymanski, the SOCOM support program 
that is in Herndon. We bring in large data sets. We have to 
apply the AI to that, but to drive to operational outcomes in 
this case it is to get after the nodes of the network to 
identify the people, places, and things that are operating 
those networks to be able to counter those.
    Mr. Larsen. Do you have the people to do that or is that a 
restriction for you to expand your capabilities?
    Mr. Oxford. So I think this falls into similar categories 
of cyber and big data analytics, and the fact that there is a 
growing demand so it is a competition that we face. What we 
find in many cases, if you are doing this in an applied way as 
opposed to a pure research way, people enjoy the national 
security nature of the work. But clearly, as we look at the 
growing threat space, we are going to need more people, because 
it is not the people that does AI, it is the people that 
actually interpret the AI results that make decisions.
    Mr. Larsen. Secretary Hassell, on chemical 
demilitarization, the program has had two Nunn-McCurdy breaches 
in the last 8 years, and your budget request is about $985 
million, a little under a billion dollars. Will the program--I 
am sure the answer is yes, so why don't you just say yes and 
then I will just agree with you. Will the program be able to 
complete all required destruction by the 2023 deadline?
    Dr. Hassell. So thank you, Congressman. If I may, I will 
tell you why I am going to say yes.
    Mr. Larsen. Perfect.
    Dr. Hassell. There has been a change. I have been in this 
office for 5 years, and I have observed it, because it was 
somebody else's program, but I have observed the problems that 
they have had. And two things have happened that give me good 
cause for hope. One is simply a change in leadership, very, 
very good leadership right now that is making a difference. 
They are making measurable headway against the stockpile, and 
you can almost track that with some of these people being in 
place now.
    Mr. Larsen. So, well, how are they doing that, how are they 
accelerating then the destruction?
    Dr. Hassell. Well, one thing they are doing is also 
bringing in some alternative technologies. So there is----
    Mr. Larsen. Such as?
    Dr. Hassell. New technology, some of the explosive chamber 
systems. I am going to quickly get outside of my area here, but 
I do know there is some new technologies that they are bringing 
in to augment what they were already building in those 
facilities. They are improving just the process throughput on 
those facilities, holding the contractors more accountable.
    Mr. Larsen. Okay. So Nunn-McCurdy breaches are about cost 
control. Is--do you foresee this fiscal year 2020 request being 
adequate?
    Dr. Hassell. I believe so, but I guess I would prefer to 
defer to DASD [Deputy Assistant Secretary of Defense] Ball who 
leads that, and we can get you a written response to that, if 
you don't mind.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Larsen. I wouldn't mind that at all. I wouldn't mind 
that at all.
    Dr. Hassell. Thank you.
    Mr. Larsen. With that, I yield back. Thank you.
    Mr. Langevin. I recognize Mr. Gallagher for 5 minutes.
    Mr. Gallagher. Thank you, Mr. Chairman. Thank you all for 
testifying this afternoon.
    So basically, since the nineties we have seen Russian 
military doctrine changing in the direction of consistently 
lowering the threshold for its nuclear firebreak. And given 
this so-called escalate to deescalate doctrine, how, if at all, 
and we will start with you, Ms. Whelan, are we planning to 
deter or mitigate the effects of low-yield nuclear weapons on 
the battlefield? Is it even something we can mitigate?
    Ms. Whelan. Thanks for the question. That actually falls to 
our Deputy Assistant Secretary of Defense Soofer, who handles 
nuclear and missile defense issues. I will say just from a WMD 
perspective, we do--we are concerned about the low-yield 
nuclear weapons in terms of creating greater risks of 
proliferation, because as you have tactical weapons, you push 
them farther down into the units, you reduce security. So that 
is a problem from a WMD or a counterproliferation perspective. 
But in terms of deterrent strategy, I would defer to my 
colleague, Dr. Soofer.
    Mr. Gallagher. Well, for anybody on the panel, I mean, are 
there any capabilities that we can field or any capabilities 
conversely that we are seeing the Russians field that would 
give them the ability to operate in a post-radiation 
environment? Whoever wants to volunteer.
    Mr. Oxford. Congressman, one of the things we are doing is 
not necessarily the operations, but we are--for example, one of 
the requirements that I won't go into great detail on, we can 
do this in the closed session, from General Scaparrotti is how 
to counter the influence of those low-yield Russian nuclear 
weapons. What does it mean for the operability of his entire 
command? It becomes a deterrent strategy that you can't take 
down part of the network and defeat his capabilities. We are 
working daily at mission assurance looking at his command and 
control systems, his theater ballistic missile systems, and 
looking at their hardness and their survivability to such 
attacks so we understand how they would operate.
    Mr. Gallagher. And then the final thing I would ask is, as 
we consider the North Korean scenario, obviously, you know, any 
outbreak of kinetic conflict would involve enormous 
destruction. I mean, Seoul, I think, is the second largest 
metropolitan area in the world. You have thousands of pieces of 
artillery in Kaesong Heights that can range Seoul. Give us a 
sense of how we should be thinking about the WMD component of 
that. And do you get the sense that, when we do our war gaming, 
what does it reveal? Maybe part of this will have to be in 
classified session, but to the extent you can address it in an 
unclassified scenario, how should we be thinking about that as 
we try and support efforts to solve this crisis diplomatically?
    Ms. Whelan. So from--I will just start out very briefly 
from a policy perspective, and you are right, much of that 
would need to be discussed in a classified session. But from a 
policy perspective, it is our intent that our forces on the 
peninsula are able to operate in a contaminated environment, if 
need be.
    We certainly are aware of the North Korean capabilities and 
potential intent to use in contingency. So it is a top priority 
for us to be prepared or have our forces prepared to address 
that. I will let my colleagues, though, speak to some of the 
details.
    Mr. Oxford. So I will let Dr. Hassell address the personnel 
protection, collected protection. One of the things we have 
done is recognize that some of the modeling of nuclear weapons' 
effects and other effects were inadequate to understand what 
the contaminated environment looked like to begin with. We have 
developed some capabilities now where we have radiation 
detectors mounted on Army Stryker vehicles, so they at 40 miles 
per hour can navigate through an environment and find out where 
the radiation actually is as opposed to considering an entire 
area off limits. It no longer exposes the soldiers to the 
actual atmospheric environment. It gives us the opportunity 
then to be mobile in that contaminated environment.
    Dr. Hassell. I would just add about the preparedness 
aspect. The NDAA last year directed us to do a study 
specifically on the issue of preparedness on the peninsula of 
the U.S. forces. So we submitted that report about a month ago 
and it highlighted that things had improved over the years but 
there were some gaps. And so we are going through right now and 
looking at what are the gaps we need to fill, both from our 
program but also from the services who were responsible for the 
long-term sustainment.
    So we are working for the response to this, the 
implementation plan for this, and this is another example 
working through the Unity of Effort group. Like I said earlier, 
this is one that is going to need an approach, not just on the 
materials and, you know, the physical materials, but it is 
going to need to make sure that we are addressing training, 
doctrine, policy, all aspects of this. And again, this is one 
of the priorities for the Unity of Effort.
    Mr. Gallagher. Thank you. My time has expired.
    Mr. Langevin. Thank you, Mr. Gallagher.
    Ms. Houlahan is recognized for 5 minutes.
    Ms. Houlahan. Thank you, sir.
    My first question is probably for Ms. Whelan and Dr. 
Hassell. It is sort of a 30,000-foot question, which is it 
looks as though the budget, the proposed budget is about a 5 
percent increase year over year in terms of the chemical 
warfare CWMD, but I also see that it looks as though RDT&E 
[research, development, test, and evaluation] has gone down by 
about $36.4 million in the proposed budget as well. So I am 
curious kind of what was the calculus. Why did we decide not to 
invest a proportionately 5 percent more in RDT&E or at least 
flat?
    Dr. Hassell. So if you look at this historically, there is 
a cycle that takes place. So even though it looks like the 
RDT&E is going down, the total budget, the procurement is going 
up. We are transitioning things from RDT&E into procurement. So 
over the next 5 years, the procurement budget will be doubling. 
And just if you look at historically at programs like this, 
there will be a cycle going in there, and then we will be 
filling in the RDT&E to kind of come along behind that and 
start developing the next generation of systems.
    Ms. Houlahan. Ms. Whelan.
    Ms. Whelan. The only thing that I will say with regard to 
sort of the overall level of effort is that I think the 
Department has actually increased the level of effort in the 
last couple of years, particularly with the UCP [Unified 
Command Plan] transfer of the mission to SOCOM and the 
establishment of SOCOM as the coordinating authority. So I 
think you have seen an increase in overall level of effort on 
this topic within the Department.
    Ms. Houlahan. So my specific question or a little bit more 
of a deeper dive question, do you feel like, by effectively 
reducing RDT&E, although it may be cyclical, that on areas like 
synthetic biology or gene editing or any of those other kinds 
of things that are moving really fast, that we are maybe 
vulnerable?
    Dr. Hassell. So that is a specific area we are looking at 
right now on synthetic biology, just take that as one example. 
So we are going back and looking at what have we been doing to 
date, because we have been dealing with this for some time, 
looking at our internal resources, our own infrastructure, and 
our personnel that we have internally, and it kind of touches 
on an earlier question too about personnel, but also looking at 
our engagement with industry and academia.
    And what we are finding is there are also some efficiencies 
we can gain there, so we have joined some academic industry 
consortiums. So rather than having to individually engage with 
these, we can go and present things to the consortium, and they 
can take it on. We have implemented other transactional 
authority, and we formed several consortiums specifically for 
DOD. So in one case, there is a CWMD consortium for the other 
transactional authority system. We have almost 200 member 
companies that are part of that. That is much more efficient. 
We can move much more quickly, and that in turn saves money, so 
it looks like we are not spending as much, but we are getting 
more for it.
    Ms. Houlahan. Thank you. I very much appreciate that. With 
the remainder 2 minutes of my time, I just have a question on 
this map here, which just visually, if you kind of look at it, 
the blue indicates the biothreat reduction efforts that are 
going on in DOD. And I also sit on the Foreign Affairs 
Committee specifically in Asia and Africa as well, and 
obviously, blue seems to be lighting up the map here in terms 
of our efforts.
    So my specific question is how are the State Department and 
DOD working together on these efforts? And do you feel as 
though the coordination is strong or that there are any 
barriers that we might perhaps be helpful on or that you have 
identified between DOD and State?
    Ms. Whelan. So I will go ahead and take that, 
Congresswoman, and thank you for that. Actually, as a reformed 
Africanist, I can speak specifically to that area that that is 
my regional area of expertise. But in general, we actually have 
terrific cooperation with the State Department in our CTR 
[Cooperative Threat Reduction] programs and also in our 
security cooperation programs writ large, which are mutually 
reinforcing.
    So in the blue areas that we are working, particularly in 
Africa, we have the State Department actually looks to us to 
work on these particular programs because not only do they 
enhance these countries' capabilities to detect nefarious 
activities regarding a biothreat, but they also help build our 
relationships with these countries government-to-government, 
mil-to-mil, so it is quite an effective partnership.
    Ms. Houlahan. Thank you. And I have about 20 seconds if you 
have--Dr. Hassell, if you have anything else to add.
    Dr. Hassell. I just give one example, perhaps the Ebola 
response in 2014 and 2015. We were on the phone with the State 
Department several times a week, a consortium, I am sorry, I am 
using that word too much, but a group of many different offices 
within DOD working together with the offices there to 
coordinate our response to that, and so it has been very good. 
There is other examples as well, but beyond just these areas on 
the map, but----
    Ms. Houlahan. Perfect. Thank you.
    I apologize for going over, and I yield back.
    Mr. Langevin. Thank you, Ms. Houlahan.
    Mr. Bacon is now recognized for 5 minutes.
    Mr. Bacon. Thank you, Mr. Chairman. I thank you and the 
ranking member for how you lead this subcommittee. I appreciate 
the bipartisan spirit. And thanks to all four of you for being 
here today.
    I would like to ask a little about the university research, 
and do we have it funded at the right levels, do you need more? 
I would love to get your feedback on it. But specifically, 
University of Nebraska is very involved. I mean, we have a UARC 
[University-Affiliated Research Center] that works on WMD and 
WMD detection. They are the Ebola center of excellence in our 
country. I mean, they were one of the hubs during the Ebola 
crisis. For example, they do foot-and-mouth disease detection, 
which could be weaponized. There are a lot of research there. 
They have a cyber research center.
    So I just want to get your feedback from you all. Are we--
just the research with our universities at all, are you seeing 
good dividends or could you just give me your thoughts on it? 
Can we fund it more or should we? Whoever would like to tackle 
it.
    Dr. Hassell. So I will give you my standard answer. It 
depends. I think there is assumptions sometimes that we should 
start with the assumption we are going to do everything 
internally. We have fantastic laboratories and fantastic people 
in them. But there is so much talent, as you well know, outside 
of the Department and outside of the government laboratories. 
So especially on the earlier stage research, we always work 
very closely with the universities. Our proposal calls 
especially for the very early stage research are really aimed 
at that community, and that is the foundation, that is the seed 
corn from what we build from.
    And as I mentioned before, we are exploring the use of 
consortia and professional societies and other things that will 
help us to get at that academic community a little more 
efficiently.
    So I think it is very good, and I come from an academic 
background and spent several years running a university 
institute, so I am sensitive to the question. There are times, 
though, where it has to cross over into classified areas and 
more sensitive issues, so sometimes we do have to bring it in-
house.
    Mr. Bacon. Which in this case they have vaults.
    Dr. Hassell. I was about to say----
    Mr. Bacon. Those folks have security clearances, at least 
the ones at University of Nebraska do.
    Dr. Hassell. Right. I was going to add, we have worked to 
actually get clearances for a lot of people. So in some cases, 
they don't have to have the facilities, but at least we can 
draw them in as consultants. And then as you point out, we have 
other places that do have those facilities that can actually do 
classified work. We just want to make sure, because of 
academia, they want to publish, so it is kind of a balance 
there.
    Mr. Bacon. My sense is, in this case, they like serving the 
customer, which is you, and that is my impression. They are 
proud of it.
    Admiral, do you have any other thoughts?
    Admiral Szymanski. Only, and it is not really related to 
CWMD, but since you are asking, I just recently visited Johns 
Hopkins Applied University--Applied Physics Lab on AI and some 
other things they are doing for SOCOM, and I just was nodding 
my head based on your comment there because they are some very 
talented people and they do want to help. And as Mr. Oxford 
mentioned earlier, they are really interested in national 
security. Even if you can't pay them a lot, because we don't 
have a lot of those skills in uniform, you know, in either CWMD 
or in AI, and I think we are trying to make them--you know, 
leverage the full power of that human capital in the 
universities.
    Mr. Bacon. Any other comments?
    Mr. Oxford. I think we are funding New York and Nebraska, 
but I will get back to verify that. But we recognize that, just 
based on our work with STRATCOM and others out there, that 
there is a center out there that we are related to. We can get 
you the details on what that looks like.
    Mr. Bacon. I just know they are very proud of it, they are 
putting a lot of emphasis on it. In fact, I was just talking to 
the president of the university today, talking about how much 
he enjoys working this. And maybe in my just closing question 
or comment for the admiral is they do have a UARC, and they 
were working close with STRATCOM when they had the mission for 
WMD, but now that is moved over to SOCOM. I just hope you all 
are taking it--build on that relationship, because they have 
350 researchers, 65 subcontracts working WMD and WMD detection, 
and I know they want to continue to serve in this capacity more 
so now that it is even SOCOM. They don't want to stop. So thank 
you.
    Mr. Chairman, I yield back.
    Mr. Langevin. Thank you, Mr. Bacon.
    Mr. Waltz is now recognized for 5 minutes.
    Mr. Waltz. Thank you, Mr. Chairman. Thank you so much.
    I am an OSD Policy alum, and so good to see some familiar 
faces and a special operator. Vice Admiral, it is good--I think 
you were in Policy sometime back, maybe 10 years ago, so it is 
good to see you as well.
    One of the things that keeps me up at night at least is 
where we are going with the synthetic biology piece, and I 
would welcome anyone on the panel, how advanced is that 
capability from a threat perspective, particularly from a 
terrorist perspective? I mean, we sit on many of these 
hearings, and we are spending literally hundreds of billions of 
dollars on hardware, on carriers, on bombers, on traditional 
defense mechanisms, and yet the ability to--for our adversaries 
to re-create infectious diseases, many of which have long been 
dormant, I would postulate that our public health 
infrastructure is not prepared to fully deal with and to employ 
it. Is this something that is over the horizon or is this 
something that you are viewing as a threat now? And if so, 
where does that kind of rack and stack? And I will open that up 
for any volunteers on that one.
    Dr. Hassell. So I will take that one, because it has been a 
principal area of emphasis. I would actually move the time 
scale back, though, because we have been looking at this for a 
long time. It was possible to use classical gene-editing 
techniques for many years. I was doing it in the nineties. 
Things have changed, though, as you point out, things with 
CRISPR-Cas9 [clustered regularly interspaced short palindromic 
repeats and CRISPR-associated protein 9], some of these other 
things that are suddenly on the front page of The New York 
Times, it has raised a profile and it highlights how things are 
changing.
    We were getting----
    Mr. Waltz. Sorry to interrupt. So is it--and that is what I 
am trying to get at, is this just a spotlight that is now on 
something that has existed or has the threat truly evolved and 
the technology evolved and/or--and, Admiral, I welcome your 
input there and yours as well, Mr. Oxford--the enemy's ability, 
particularly ISIS, al-Qaida, traditional terrorist 
organizations.
    Dr. Hassell. That is where the concern is raised is what is 
the potential now for a lone actor, small, you know, violent 
extremist organization to do that. So that has raised the 
democratization, as the term is used oftentimes.
    One of the things we did is I went and funded a study at 
the National Academy of Sciences to actually look at this, 
because we were getting reports all over the place, one, that 
this is a marketing hype, kind of your--to answer your 
question, the answer was yes to both, because it was a 
marketing hype, it really wasn't a change. Others, it is a huge 
change, everything is new again, and the end of the world is 
nigh. Where was the truth in between those two?
    So we empaneled the national academies. They did two 
things. One is they developed a framework, so everybody was 
jumping into doing an assessment, but they weren't stepping 
back and saying how were you doing that assessment? So they 
developed their framework and then they used that framework to 
do the assessment. And I brought a prop. So what they did is 
they came out with a report this past summer, I am happy to 
give you a copy of it, and we have talked about this with the 
staff here for a couple of years now, so this is out now. We 
are now looking at how we respond to this.
    Again, this is interagency working on this very heavily and 
with the intelligence community to make sure we are looking 
at----
    Mr. Waltz. Okay. Thank you. Thank you. Just in the interest 
of time, I do want to commend, I think so far from everything I 
have heard, it has been a success story in the shift from 
STRATCOM to SOCOM and the relationship with DTRA and talking to 
folks. Where are we in doing CTR--in CTR with Russia? And I 
understand that we no longer are. And where does that--I mean, 
what effects are you seeing, to the extent we can talk about it 
in an open hearing?
    Mr. Oxford. So we are not doing CTR. We don't have the 
authority to work there right now. We probably have the closest 
working relationship with the Russians through our other 
treaties--or the New START [Strategic Arms Reduction] Treaty 
and the Open Skies treaties. We have routine engagements with 
the Russians, but there is no determination or authority to 
work CTR with that program, and right now, there has been no 
push to get in that space.
    Mr. Waltz. And just finally in the interest of time, my 
understanding is the majority of JIEDDO's [Joint Improvised-
Threat Defeat Organization] budget or all of JIEDDO's budget 
now is in OCO [overseas contingency operations].
    Mr. Oxford. It is.
    Mr. Waltz. So if we go to a continuing resolution, what 
effect is that going to have on your capability?
    Mr. Oxford. So we have yet to look at what the provisions 
of that may be. If it is to zero base, to some other level, we 
would have to go back in and look at the entire agency and 
figure out what the right blend would be as a result of that. 
In other words, if you say----
    Mr. Waltz. The effect on operators----
    Mr. Oxford [continuing]. Here is the top line, if you have 
got to go down to this top line, I would have to figure out the 
impacts across the entire agency. In my mind, it wouldn't just 
automatically be an impact to JD; it would be what else would I 
have to trade off with the rest of the agency mission. So we 
would have to do a zero sum game across the portfolio.
    Mr. Waltz. Thank you.
    I am over my time. Thank you, Chairman.
    Mr. Langevin. Thank you, Mr. Waltz, an important line of 
questions too. And I touched on that in my opening statement, 
but, you know, I am becoming increasingly concerned about the 
dual-use technologies, the threats of bioweapons, and we need 
to have a continued and strengthened focus on this area to keep 
our country safe, keep our troops safe, and our allies around 
the world as well.
    So, with that, we are going to now move to the closed 
session. Members will likely have follow-up questions, and we 
ask you to respond to those questions in writing as 
expeditiously as possible.
    Thank you all for your testimony, the work you are doing 
every day to keep our country safe.
    And, with that, this hearing stands adjourned, and we will 
now go into the closed session.
    [Whereupon, at 3:50 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                             April 3, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 3, 2019

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 3, 2019

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    Dr. Hassell. Yes. Based upon the current program requirements, the 
Fiscal Year 2020 Chemical Agents and Munitions Destruction, Defense 
appropriation request for the Chemical Demilitarization Program of 
$985.5 million is adequate.   [See page 18.]

                                  <all>
</pre></body></html>
